Board of Governors of The
Federal Reserve System
Financial Statements as of and for the
Years Ended December 31, 2010 and 2009,
and Independent Auditors’ Report
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

TABLE OF CONTENTS


                                                                                        Page

MANAGEMENT’S ASSERTION                                                                  1

INDEPENDENT AUDITORS’ REPORT                                                           2-3

INDEPENDENT AUDITORS' REPORT ON INTERNAL                                               4-5
  CONTROL OVER FINANCIAL REPORTING

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2010 AND 2009:

 Balance Sheets                                                                         6

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations    7-8

 Statements of Cash Flows                                                               9

 Notes to Financial Statements                                                         10–25

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL                        26-27
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS
                                                                                Deloitte & Touche LLP

                                                                                Suite 800
                                                                                1750 Tysons Boulevard
                                                                                McLean, VA 22102-4219
                                                                                USA

                                                                                Tel: +1 703 251 1000
                                                                                Fax: +1 703 251 3400
INDEPENDENT AUDITORS' REPORT                                                    www.deloitte.com



To the Board of Governors of the Federal Reserve System:

We have audited the accompanying balance sheets of the Board of Governors of the Federal
Reserve System (the “Board”) as of December 31, 2010 and 2009, and the related statements of
revenues and expenses and changes in cumulative results of operations, and cash flows for the
years then ended. These financial statements are the responsibility of the Board’s management.
Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards as established
by the Auditing Standards Board (United States), auditing standards of the Public Company
Accounting Oversight Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Board of Governors of the Federal Reserve System as of December 31, 2010 and
2009, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), the Board's internal control over financial reporting as of
December 31, 2010, based on the criteria established in Internal Control—Integrated Framework
issued by the Committee of Sponsoring Organizations of the Treadway Commission and our
report dated February 28, 2011 expressed an unqualified opinion on the Board's internal control
over financial reporting.
In accordance with Government Auditing Standards, we have also issued our report dated
February 28, 2011, on our tests of the Board’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements and other matters. The purpose of that report is to
describe the scope of our testing of compliance and the results of that testing, and not to provide
an opinion on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be considered in assessing the results of our
audit.




February 28, 2011
                                                                                   Deloitte & Touche LLP

                                                                                   Suite 800
                                                                                   1750 Tysons Boulevard
                                                                                   McLean, VA 22102-4219
                                                                                   USA

INDEPENDENT AUDITORS' REPORT ON                                                    Tel: +1 703 251 1000
                                                                                   Fax: +1 703 251 3400
INTERNAL CONTROL OVER FINANCIAL REPORTING                                          www.deloitte.com


To the Board of Governors of the Federal Reserve System:

We have audited the internal control over financial reporting of the Board of Governors of the
Federal Reserve System (the “Board”) as of December 31, 2010, based on criteria established in
Internal Control — Integrated Framework issued by the Committee of Sponsoring Organizations
of the Treadway Commission. The Board's management is responsible for maintaining effective
internal control over financial reporting and for its assessment of the effectiveness of internal
control over financial reporting, included in the accompanying Management’s Assertion report.
Our responsibility is to express an opinion on the Board's internal control over financial
reporting based on our audit.

We conducted our audit in accordance with the standards of the Public Company Accounting
Oversight Board (United States). Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether effective internal control over financial reporting was
maintained in all material respects. Our audit included obtaining an understanding of internal
control over financial reporting, assessing the risk that a material weakness exists, testing and
evaluating the design and operating effectiveness of internal control based on the assessed risk,
and performing such other procedures as we considered necessary in the circumstances. We
believe that our audit provides a reasonable basis for our opinion.

The Board’s internal control over financial reporting is a process designed by, or under the
supervision of, the Board’s principal executive and principal financial officers, or persons
performing similar functions, and effected by the Board's Committee on Board Affairs,
management, and other personnel to provide reasonable assurance regarding the reliability of
financial reporting and the preparation of financial statements for external purposes in
accordance with accounting principles generally accepted in the United States of America. The
Board’s internal control over financial reporting includes those policies and procedures that (1)
pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect the
transactions and dispositions of the assets of the Board; (2) provide reasonable assurance that
transactions are recorded as necessary to permit preparation of financial statements in accordance
with generally accepted accounting principles, and that receipts and expenditures of the Board
are being made only in accordance with authorizations of management and governors of the
Board; and (3) provide reasonable assurance regarding prevention or timely detection of
unauthorized acquisition, use, or disposition of the Board's assets that could have a material
effect on the financial statements.

Because of the inherent limitations of internal control over financial reporting, including the
possibility of collusion or improper management override of controls, material misstatements
due to error or fraud may not be prevented or detected on a timely basis. Also, projections of any
evaluation of the effectiveness of the internal control over financial reporting to future periods
are subject to the risk that the controls may become inadequate because of changes in conditions,
or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, the Board maintained, in all material respects, effective internal control over
financial reporting as of December 31, 2010, based on the criteria established in Internal Control
— Integrated Framework issued by the Committee of Sponsoring Organizations of the Treadway
Commission.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), generally accepted auditing standards as established by the
Auditing Standards Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States, the accompanying balance sheet, statements of revenues and expenses and changes in
cumulative results of operations, and cash flows as of and for the year ended December 31, 2010
of the Board and our report dated February 28, 2011 expressed an unqualified opinion on those
financial statements.




February 28, 2011
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

BALANCE SHEETS
AS OF DECEMBER 31, 2010 AND 2009


                                                           2010            2009
ASSETS
CURRENT ASSETS:
 Cash                                                  $ 55,142,632    $    54,792,831
 Accounts receivable                                      3,234,076          2,948,984
 Prepaid expenses and other assets                        2,657,914          3,693,970
      Total current assets                               61,034,622         61,435,785

NONCURRENT ASSETS:
 Property, equipment, and software — net                156,767,186        159,267,605
 Other assets                                               576,659          1,837,995
      Total noncurrent assets                           157,343,845        161,105,600

TOTAL                                                  $ 218,378,467   $   222,541,385

LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS
CURRENT LIABILITIES:
 Accounts payable and accrued liabilities              $ 15,403,521    $    20,765,464
 Accrued payroll and related taxes                       21,894,036         10,940,984
 Accrued annual leave                                    26,337,190         24,821,044
 Capital lease payable                                      544,878            533,110
 Unearned revenues and other liabilities                    556,846          2,982,629

      Total current liabilities                          64,736,471         60,043,231

LONG-TERM LIABILITIES:
 Capital lease payable                                      237,479            782,357
 Accumulated retirement benefit obligation               21,979,219         13,021,387
 Accumulated postretirement benefit obligation           10,219,672          9,304,324
 Accumulated postemployment benefit obligation           13,813,254         14,463,965
 Other long-term liabilities                              3,545,936            415,324
      Total long-term liabilities                        49,795,560         37,987,357

      Total liabilities                                 114,532,031         98,030,588

CUMULATIVE RESULTS OF OPERATIONS:
 Fund balance                                           118,473,958        133,677,902
 Accumulated other comprehensive income (loss)          (14,627,522)        (9,167,105)

      Total cumulative results of operations            103,846,436        124,510,797
TOTAL                                                  $ 218,378,467   $   222,541,385

See notes to financial statements.




                                                 -6-
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF REVENUES AND EXPENSES
AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009

                                                               2010               2009
BOARD OPERATING REVENUES:
 Assessments levied on Federal Reserve Banks for Board
  operating expenses and capital expenditures             $   422,200,000    $   386,399,900
 Other revenues                                                 8,693,489          9,413,565
       Total operating revenues                               430,893,489        395,813,465
BOARD OPERATING EXPENSES:
 Salaries                                                     268,168,023        243,664,276
 Retirement and insurance                                      56,788,740         50,458,964
 Contractual services and professional fees                    48,698,913         40,065,160
 Depreciation, amortization, and net gains on disposals        15,865,704         13,885,165
 Utilities                                                      8,628,394          8,676,782
 Travel                                                        10,847,795         11,346,880
 Software                                                       8,057,580          8,699,031
 Postage and supplies                                           7,100,302          8,157,780
 Repairs and maintenance                                        3,384,994          5,115,155
 Printing and binding                                           2,240,489          2,597,982
 Other expenses                                                16,316,499         13,553,896
       Total operating expenses                               446,097,433        406,221,071
RESULTS OF OPERATIONS                                         (15,203,944)       (10,407,606)
CURRENCY COSTS:
 Assessments levied on Federal Reserve Banks for
  currency costs                                              622,858,648        502,144,883
 Expenses for costs related to currency                       622,858,648        502,144,883

       Currency assessments over (under) expenses                     -                  -
BUREAU OF CONSUMER FINANCIAL PROTECTION (BUREAU)
 Assessments levied on the Reserve Banks for the Bureau 32,770,000
 Transfer to the Bureau                                 32,770,000                       -

       Bureau assessments over (under) transfers                      -                  -
OFFICE OF FINANCIAL RESEARCH (OFFICE) :
 Assessments levied on the Reserve Banks for the Office         9,515,944
 Transfers to the Office                                        9,515,944                -
       Office assessments over (under) transfers                      -                  -
TOTAL RESULTS OF OPERATIONS                                   (15,203,944)       (10,407,606)




                                                -7-
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF REVENUES AND EXPENSES
AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS (CONTINUED)
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009

CUMULATIVE RESULTS OF OPERATIONS — Beginning
 of year                                                     124,510,797        134,811,346

OTHER COMPREHENSIVE INCOME:
 Prior service credit (cost) arising during the year                -              (315,842)
 Amortization of prior service (credit) cost                     518,195            541,162
 Amortization of net actuarial (gain) loss                       576,736            353,551
 Net actuarial gain (loss) arising during the year            (6,555,348)          (471,814)

       Total other comprehensive income (loss)                (5,460,417)          107,057

CUMULATIVE RESULTS OF OPERATIONS — End of year           $   103,846,436    $   124,510,797


See notes to financial statements.




                                                   -8-
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                                        2010              2009

CASH FLOWS FROM OPERATING ACTIVITIES:
 Results of operations                                             $ (15,203,944)   $   (10,407,606)
 Adjustments to reconcile results of operations to net cash
  provided by (used in) operating activities:
  Depreciation                                                       15,877,105         13,869,221
  Net loss (gain) on disposal of property and equipment                 (11,401)            15,944
  Other additional non-cash adjustments to results of operations        658,587                  -
  (Increase) decrease in assets:
     Accounts receivable, prepaid expenses and other assets             730,143          1,499,641
  Increase (decrease) in liabilities:
     Accounts payable and accrued liabilities                          (822,981)         1,668,788
     Accrued payroll and related taxes                               10,953,052          1,627,747
     Accrued annual leave                                             1,516,146          2,586,938
     Unearned revenues and other liabilities                         (2,425,783)         1,139,571
     Net retirement benefit obligation                                3,911,348          2,592,406
     Net postretirement benefit obligation                              501,415            445,903
     Net postemployment benefit obligation                             (650,711)           563,965
     Other long-term liabilities                                      3,130,612           (233,210)

       Net cash provided by (used in) operating activities           18,163,588         15,369,308

CASH FLOWS FROM INVESTING ACTIVITIES:
 Proceeds from disposals                                                      -                 866
 Capital expenditures                                               (17,296,078)        (18,346,427)

       Net cash provided by (used in) investing activities          (17,296,078)        (18,345,561)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Capital lease payments                                                (517,709)          (486,906)

       Net cash provided by (used in) financing activities             (517,709)          (486,906)

NET INCREASE (DECREASE) IN CASH                                         349,801          (3,463,159)

CASH BALANCE — Beginning of year                                     54,792,831         58,255,990

CASH BALANCE — End of year                                         $ 55,142,632     $   54,792,831


See notes to financial statements.




                                                  -9-
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


1.   STRUCTURE

     The Federal Reserve System (the System) was established by Congress in 1913 and consists of the
     Board of Governors (the Board), the Federal Open Market Committee, the twelve regional Federal
     Reserve Banks, the Federal Advisory Council, and the private commercial banks that are members of the
     System. The Board, unlike the Reserve Banks, was established as a federal government agency and is
     supported by Washington, D.C. based staff numbering approximately 2,100, as it carries out its
     responsibilities in conjunction with other components of the Federal Reserve System.

     The Board is required by the Federal Reserve Act (the Act) to report its operations to the Speaker of the
     House of Representatives. The Act also requires the Board, each year, to order a financial audit of each
     Federal Reserve Bank and to publish each week a statement of the financial condition of each such
     Reserve Bank and a consolidated statement for all of the Reserve Banks. Accordingly, the Board
     believes that the best financial disclosure consistent with law is achieved by issuing separate financial
     statements for the Board and for the Reserve Banks. Therefore, the accompanying financial statements
     include only the results of operations and activities of the Board. Combined financial statements for the
     Federal Reserve Banks are included in the Board’s annual report to the Speaker of the House of
     Representatives.

2.   OPERATIONS AND SERVICES

     The Board’s responsibilities require thorough analysis of domestic and international financial and
     economic developments. The Board carries out those responsibilities in conjunction with other
     components of the Federal Reserve System. The Board also supervises and regulates the operations of
     the Federal Reserve Banks, exercises broad responsibility in the nation’s payments system, and currently
     administers most of the nation’s laws regarding consumer credit protection. Policy regarding open
     market operations is established by the Federal Open Market Committee. However, the Board has sole
     authority over changes in reserve requirements, and it must approve any change in the discount rate
     initiated by a Federal Reserve Bank. The Board also plays a major role in the supervision and regulation
     of the U.S. banking system. It has supervisory responsibilities for state-chartered banks that are members
     of the Federal Reserve System, bank holding companies, foreign activities of member banks, and U.S.
     activities of foreign banks.

     The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Dodd-Frank Act), which
     was signed into law and became effective on July 21, 2010, changed the scope of some services
     performed by the System. Among other things, the Dodd-Frank Act establishes a Bureau of Consumer
     Financial Protection (Bureau) as an independent bureau within the System that will have rule-writing
     authority with respect to most federal financial consumer protection statutes and supervisory authority
     with respect to these statutes over some institutions previously supervised by the Board. The Dodd-
     Frank Act will also vest the Board with all supervisory and rule-writing authority for savings and loan
     holding companies. In addition, the Dodd-Frank Act creates a Financial Stability Oversight Council
     (FSOC) of which the Chairman of the Board is a member. Some of the FSOC's responsibilities include
     identifying systemically important nonbank financial companies to be supervised by the Board. The
     Dodd-Frank Act also establishes the Office of Financial Research (Office) within the U.S. Department
     of Treasury to provide support to the FSOC and the member agencies.


                                                    - 10 -
     Section 1017 of the Dodd-Frank Act provides that the financial statements of the Bureau are not to be
     consolidated with those of the Board or the System. The Board has also determined that neither the
     FSOC nor the Office should be consolidated in the Board’s financial statements. Accordingly, the
     Board's financial statements do not include financial data of the Bureau, the Office, or the FSOC other
     than the funding that the Board is required by the Dodd-Frank Act to provide. (See Notes 13 and 14)



3.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting — The Board prepares its financial statements in accordance with accounting
     principles generally accepted in the United States (GAAP).

     Revenues — The Federal Reserve Act authorizes the Board to levy an assessment on the Reserve Banks
     to fund its operations. The Board levies the assessment based on each Reserve Bank’s capital and
     surplus balances as of December 31 of the prior year.

     Assessments to Fund the Bureau and the Office — The Board assesses the Federal Reserve Banks for
     the funds transferred to the Bureau and the Office based on each Federal Reserve Bank’s capital and
     surplus balances. These assessments and transfers are reported separately from the Board’s operating
     activities in the Board’s Statements of Revenues and Expenses and Changes in Cumulative Results of
     Operations.

     Currency Costs — The Federal Reserve Board issues the nation’s currency (in the form of Federal
     Reserve notes), and the Federal Reserve Banks distribute currency and coin through depository
     institutions. The Board incurs expenses and assesses the Reserve Banks for the expenses related to
     producing, issuing, and retiring Federal Reserve notes. The assessment is allocated based on each
     Reserve Bank’s share of the number of notes comprising the Federal Reserve Bank System’s net liability
     for Federal Reserve notes on December 31 of the prior year. These expenses and assessments are
     reported separately from the Board’s operating activities in the Board’s Statements of Revenues and
     Expenses and Changes in Cumulative Results of Operations.

     Allowance for Doubtful Accounts — Accounts receivable are shown net of the allowance for doubtful
     accounts. Accounts receivable considered uncollectible are charged against the allowance account in the
     year they are deemed uncollectible. The allowance for doubtful accounts is adjusted monthly, based
     upon a review of outstanding receivables.

     Property, Equipment, and Software — The Board’s property, buildings, equipment, and software are
     stated at cost less accumulated depreciation and amortization. Depreciation and amortization are
     calculated on a straight-line basis over the estimated useful lives of the assets, which range from three to
     ten years for furniture and equipment, ten to fifty years for building equipment and structures, and two to
     ten years for software. Upon the sale or other disposition of a depreciable asset, the cost and related
     accumulated depreciation or amortization are removed and any gain or loss is recognized.

     The Board’s internally developed software projects are each recorded at cost and capitalized and
     amortized over the project’s useful life as required by the Internal Use Software Topic of the Financial
     Accounting Standards Board (FASB) Accounting Standards Codification (ASC).

     Art Collections — The Board has collections of works of art, historical treasures, and similar assets.
     These collections are maintained and held for public exhibition in furtherance of public service.
     Proceeds from any sales of collections are used to acquire other items for collections. As permitted by



                                                     - 11 -
     the Revenue Recognition Topic of the ASC, the cost of collections purchased by the Board is charged to
     expense in the year purchased and donated collection items are not recorded. The value of the Board’s
     collections has not been determined.

     Deferred Rent — The leases contain scheduled rent increases over the term of the lease. As required by
     the Leases Topic of the ASC, rent abatements and scheduled rent increases must be considered in
     determining the annual rent expense to be recognized. The deferred rent represents the difference
     between the actual lease payments and the rent expense recognized.

     Estimates — The preparation of financial statements in conformity with GAAP requires management to
     make estimates and assumptions that affect the reported amounts of assets and liabilities at the date of
     the financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from those estimates.

4.   PROPERTY, EQUIPMENT, AND SOFTWARE

     The following is a summary of the components of the Board’s property, equipment, and software, at
     cost, net of accumulated depreciation and amortization as of December 31, 2010 and 2009:

                                                                               2010                2009

       Land                                                              $ 18,640,314         $ 18,640,314
       Buildings and improvements                                         163,868,033          155,403,350
       Furniture and equipment                                             68,789,408           66,411,669
       Software in use                                                     24,244,811           16,196,241
       Software in process                                                  1,985,544            6,276,842
       Construction in process                                              4,810,307            8,100,559

                                                                           282,338,417         271,028,975

       Less accumulated depreciation and amortization                     (125,571,231)       (111,761,370)

       Property, equipment, and software — net                           $ 156,767,186        $159,267,605

     Construction in process include costs incurred in the current or prior years for long-term projects and
     building enhancements.

5.   LEASES

     Capital Leases —The Board entered into capital leases in 2008 and 2009. Furniture and equipment
     includes $2,086,000 under capital leases in both 2010 and 2009. Accumulated depreciation includes
     $1,319,000 and $789,000 under capital leases as of 2010 and 2009, respectively.




                                                    - 12 -
The future minimum lease payments required under the capital leases and the present value of the net
minimum lease payments as of December 31, 2010, are as follows:

  Years Ending
  De ce mbe r 31,                                                                          Amount

  2011                                                                                 $    978,315
  2012                                                                                      421,925

          Total minimum lease payments                                                     1,400,240

  Less amount representing maintenance                                                     (604,906)

          Net minimum lease payments                                                        795,334

  Less amount representing interest                                                         (12,977)

          Present value of net minimum lease payments                                       782,357

  Less current maturities of capital lease payments                                        (544,878)

  Long-term capital lease obligations                                                  $    237,479


Operating Leases — The Board has entered into several operating leases to secure office, training and
warehouse space. Minimum annual payments under the operating leases having an initial or remaining
non-cancelable lease term in excess of one year at December 31, 2010, are as follows:



  Years Ending
  December 31,

  2011                                                                                 $ 6,251,496
  2012                                                                                   6,414,807
  2013                                                                                   6,608,976
  2014                                                                                   6,788,468
  After 2014                                                                            35,626,043

                                                                                       $ 61,689,790

Rental expenses under the operating leases were $6,882,000 and $3,947,000 for the years ended
December 31, 2010 and 2009, respectively. The Board entered into a new operating lease in January
2011. The estimated future minimum lease payments associated with the new lease total $78,702,000
over a ten year period.

The Board leases and subleases space, primarily to other governmental agencies. The revenues collected
from these leases are $1,937,000 and $2,504,000 in 2010 and 2009, respectively.

Deferred Rent — The change in deferred rent was $528,000 and $1,666,000 for the years ended
December 31, 2010 and 2009, respectively.


                                              - 13 -
6.   ACCUMULATED RETIREMENT BENEFITS

     Substantially all of the Board’s employees participate in the Retirement Plan for Employees of the
     Federal Reserve System (the System Plan). The System Plan provides retirement benefits to employees
     of the Board, the Federal Reserve Banks, and the Office of Employee Benefits of the Federal Reserve
     System (OEB). In addition, under the Dodd-Frank Act, employees of the Bureau can elect to participate
     in the System Plan; however, there were no Bureau participants in the System Plan as of December 31,
     2010. The Federal Reserve Bank of New York (FRB NY), on behalf of the System, recognizes the net
     assets and costs associated with the System Plan in its financial statements. Costs associated with the
     System Plan are not redistributed to other participating employers.

     Employees of the Board who became employed prior to 1984 are covered by a contributory defined
     benefits program under the System Plan. Employees of the Board who became employed after 1983 are
     covered by a non-contributory defined benefits program under the System Plan. Contributions to the
     System Plan are actuarially determined and funded by participating employers. In 2010, the System
     made $580 million in contributions to the System Plan; the contributions may be adjusted upon
     completion of the 2011 actuarial valuation. The Board was not assessed a contribution for 2010.

     Effective January 1, 1996, Board employees covered under the System Plan are also covered under a
     Benefits Equalization Plan (BEP). Benefits paid under the BEP are limited to those benefits that cannot
     be paid from the System Plan due to limitations imposed by Sections 401(a)(17), 415(b) and 415(e) of
     the Internal Revenue Code of 1986. Activity for the BEP as of December 31, 2010 and 2009, is
     summarized in the following tables:




                                                   - 14 -
                                                           2010               2009

Change in projected benefit obligation:
 Benefit obligation — beginning of year              $    5,900,567      $   4,591,374
 Service cost                                             1,359,828            712,515
 Interest cost                                              545,688            307,501
 Plan participants’ contributions
 Actuarial (gain) loss                                    4,155,013           (175,635)
 Gross benefits paid                                        (27,661)           (27,649)
 Plan amendments                                                               492,461
Benefit obligation — end of year                     $   11,933,435      $   5,900,567

Accumulated benefit obligation — end of year         $    1,686,998      $   1,245,465
Weighted-average assumptions used to determine
 benefit obligation as of December 31:
 Discount rate                                                  5.50 %             6.00 %
 Rate of compensation increase                                  5.00 %             5.00 %
Change in plan assets:
 Fair value of plan assets — beginning of year       $          -        $         -
 Employer contributions                                      27,661             27,649
 Plan participants’ contributions
 Gross benefits paid                                         (27,661)          (27,649)
Fair value of plan assets — end of year              $            -      $         -
Funded status:
 Reconciliation of funded status — end of year:
  Fair value of plan assets                          $          -        $         -
  Benefit obligations                                    11,933,435          5,900,567
      Funded status                                      (11,933,435)        (5,900,567)
 Amount recognized — end of year                     $ (11,933,435)      $ (5,900,567)
 Amounts recognized in the statements of financial
  position consist of:
  Asset                                              $           -       $          -
  Liability                                              (11,933,435)        (5,900,567)
 Net amount recognized                               $ (11,933,435)      $ (5,900,567)
 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                          $    5,575,910      $   1,708,854
  Prior service cost (credit)                               701,833            714,123
                                                     $    6,277,743      $   2,422,977




                                           - 15 -
  Expected cash flows:
   Expected employer contributions — 2011                         $      203,387
   Expected benefit payments:*
    2011                                                          $      203,387
    2012                                                                 245,726
    2013                                                                 270,697
    2014                                                                 288,871
    2015                                                                 317,411
    2016–2020                                                          2,036,841
  *Expected benefit payments to be made from System assets
                                                                        2010                    2009
  Components of net periodic benefit cost:
   Service cost                                                   $    1,359,828        $        712,515
   Interest cost                                                         545,688                 307,501
   Expected return on plan assets
   Amortization:
    Actuarial (gain) loss                                                287,957                 146,780
    Prior service (credit) cost                                           12,290                  35,257
  Net periodic benefit cost (credit)                              $    2,205,763        $       1,202,053
  Weighted-average assumptions used to determine
   net periodic benefit cost:
   Discount rate                                                            6.00 %                   6.00 %
   Rate of compensation increase                                            5.00 %                   5.00 %

  Other changes in plan assets and benefit obligations
   recognized in other comprehensive income:
   Current year prior service (credit) cost                       $          -          $        492,461
   Current year actuarial (gain) loss                                  4,155,013                (175,635)
   Amortization of prior service credit (cost)                           (12,290)                (35,257)
   Amortization of actuarial gain (loss)                                (287,957)               (146,780)
  Total recognized in other comprehensive income                  $    3,854,766        $        134,789
  Total recognized in net periodic benefit cost and
   other comprehensive income                                     $    6,060,529        $       1,336,842




Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2011 are shown below:

  Net actuarial (gain) loss                                                           $ 446,472
  Prior service (credit) cost                                                             1,881

  Total                                                                               $ 448,353




                                               - 16 -
On October 30, 2008, the Board approved a non-qualified plan for Officers of the Board. The retirement
benefits covered under the Board Officer Pension Enhancement (BOPE) increases the pension benefit
calculation from 1.8% above the Social Security integration level to 2.0%. Activity for the BOPE as of
December 31, 2010 and 2009, is summarized in the following tables:

                                                                            2010               2009
  Change in projected benefit obligation:
   Benefit obligation — beginning of year                            $ 7,120,820        $ 6,275,285
   Service cost                                                          409,007            333,034
   Interest cost                                                         493,780            402,680
   Plan participants’ contributions
   Actuarial (gain) loss                                                 1,935,668            286,440
   Gross benefits paid                                                      (9,638)
   Plan amendments                                                                           (176,619)
  Benefit obligation — end of year                                   $ 9,949,637        $ 7,120,820
  Accumulated benefit obligation — end of year                       $ 7,063,653        $ 5,175,331
  Weighted-average assumptions used to determine
   benefit obligation as of December 31:
   Discount rate                                                               5.50 %             6.00 %
   Rate of compensation increase                                               5.00 %             5.00 %
  Change in plan assets:
   Fair value of plan assets — beginning of year                     $       -          $        -
   Employer contributions                                                    9,638
   Plan participants’ contributions
   Gross benefits paid                                                       (9,638)
  Fair value of plan assets — end of year                            $        -         $        -
  Funded status:
   Reconciliation of funded status — end of year:
    Fair value of plan assets                                        $       -          $       -
    Benefit obligations                                                  9,949,637          7,120,820
         Funded status                                                   (9,949,637)        (7,120,820)
   Amount recognized — end of year                                   $ (9,949,637)      $ (7,120,820)
   Amounts recognized in the statements of financial
    position consist of:
    Asset                                                            $        -         $        -
    Liability                                                            (9,949,637)        (7,120,820)
   Net amount recognized                                             $ (9,949,637)      $ (7,120,820)




                                              - 17 -
                                                                 2010             2009
 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                 $ 3,465,859       $ 1,742,746
  Prior service cost (credit)                                 3,243,278         3,774,673

                                                            $ 6,709,137       $ 5,517,419

Expected cash flows:
 Expected employer contributions — 2011                     $     57,224

 Expected benefit payments:**
  2011                                                      $      57,224
  2012                                                            101,577
  2013                                                            152,569
  2014                                                            211,829
  2015                                                            275,788
  2016–2020                                                     2,463,754
**Expected benefit payments to be made from System assets

Components of net periodic benefit cost:
 Service cost                                               $    409,007      $   333,034
 Interest cost                                                   493,780          402,680
 Expected return on plan assets
 Amortization:                                                   212,555          150,893
  Actuarial (gain) loss                                          531,395          531,395
  Prior service (credit) cost

Net periodic benefit cost (credit)                          $ 1,646,737       $ 1,418,002

Weighted-average assumptions used to determine
 net periodic benefit cost:
 Discount rate                                                       6.00 %           6.00 %
 Rate of compensation increase                                       5.00 %           5.00 %

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:
 Current year prior service (credit) cost                   $       -         $   (176,619)
 Current year actuarial (gain) loss                             1,935,668          286,440
 Amortization of prior service credit (cost)                     (531,395)        (531,395)
 Amortization of actuarial gain (loss)                           (212,555)        (150,893)

Total recognized in other comprehensive income              $ 1,191,718       $   (572,467)

Total recognized in net periodic benefit cost and
 other comprehensive income                                 $ 2,838,455       $   845,535




                                              - 18 -
Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2011 are shown below:

  Net actuarial (gain) loss                                                                $ 287,715
  Prior service (credit) cost                                                                531,395

  Total                                                                                    $ 819,110

The total accumulated retirement benefit obligation includes a liability for a supplemental retirement
agreement and a benefits equalization plan under the Federal Reserve System’s Thrift Plan. The total
obligation as of December 31, 2010 and 2009 is summarized in the following table:

                                                                         2010              2009

Accumulated retirement benefit obligation:
 Benefit obligation — BEP                                           $ 11,933,435      $ 5,900,567
 Benefit obligation — BOPE                                             9,949,637        7,120,820
 Additional benefit obligation                                            96,147              -

Total accumulated retirement benefit obligation                     $ 21,979,219      $ 13,021,387

A relatively small number of Board employees participate in the Civil Service Retirement System
(CSRS) or the Federal Employees’ Retirement System (FERS). These defined benefit plans are
administered by the U.S. Office of Personnel Management, which determines the required employer
contribution levels. The Board’s contributions to these plans totaled $452,000 and $329,000 in 2010 and
2009, respectively. The Board has no liability for future payments to retirees under these programs and
is not accountable for the assets of the plans.

Employees of the Board may also participate in the Federal Reserve System’s Thrift Plan or Roth
401(k). Board contributions to members’ accounts were $16,695,000 and $14,342,000 in 2010 and 2009,
respectively.




                                               - 19 -
7.   ACCUMULATED POSTRETIREMENT BENEFITS

     The Board provides certain life insurance programs for its active employees and retirees. Activity as of
     December 31, 2010 and 2009, is summarized in the following tables:

                                                                                    2010                   2009

       Change in projected benefit obligation:
        Benefit obligation — beginning of year                              $      9,304,324        $ 8,527,800
        Service cost                                                                 188,357            169,687
        Interest cost                                                                532,592            516,194
        Plan participants’ contributions                                               -                  -
        Actuarial (gain) loss                                                        464,667            361,009
        Gross benefits paid                                                         (270,268)          (270,366)
        Curtailments                                                                   -                  -

       Benefit obligation — end of year                                     $     10,219,672        $ 9,304,324

       Weighted-average assumptions used to determine
        benefit obligation as of December 31 — discount rate                               5.25 %             5.75 %

       Change in plan assets:
        Fair value of plan assets — beginning of year                       $          -            $       -
        Employer contributions                                                       270,268              270,366
        Gross benefits paid                                                         (270,268)            (270,366)

       Fair value of plan assets — end of year                              $           -           $        -

       Funded status:
        Reconciliation of funded status — end of year:
         Fair value of plan assets                                          $          -            $       -
         Benefit obligations                                                      10,219,672            9,304,324

                 Funded status                                                   (10,219,672)           (9,304,324)

        Amount recognized — end of year                                     $    (10,219,672)       $ (9,304,324)

        Amounts recognized in the statements of financial
         position consist of:
         Asset                                                              $          -            $        -
         Liability                                                               (10,219,672)           (9,304,324)

        Net amount recognized                                               $    (10,219,672)       $ (9,304,324)




                                                    - 20 -
                                                               2010           2009

 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                $ 1,917,176    $ 1,528,733
  Prior service cost (credit)                                 (276,534)      (302,024)

                                                           $ 1,640,642    $ 1,226,709

Expected cash flows:
 Expected employer contributions — 2011                    $ 337,952

 Expected benefit payments:*
  2011                                                     $ 337,952
  2012                                                        354,971
  2013                                                        383,010
  2014                                                        411,414
  2015                                                        439,387
  2016–2020                                                 2,623,724
*Expected benefit payments to be made from System assets

Components of net periodic benefit cost:
 Service cost                                              $ 188,357      $ 169,687
 Interest cost                                               532,592        516,194
 Expected return on plan assets                                  -              -
 Amortization:
  Actuarial (gain) loss                                        76,224         55,878
  Prior service (credit) cost                                 (25,490)       (25,490)

Net periodic benefit cost (credit)                         $ 771,683      $ 716,269

Weighted-average assumptions used to determine
 net periodic benefit cost — discount rate                       5.75 %         6.00 %

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:
 Current year actuarial (gain) loss                        $ 464,667      $ 361,009
 Amortization of prior service credit (cost)                  25,490         25,490
 Amortization of actuarial gain (loss)                     $ (76,224)     $ (55,878)

Total recognized in other comprehensive income             $ 413,933      $ 330,621

Total recognized in net periodic benefit cost and
 other comprehensive income                                $ 1,185,616    $ 1,046,890




                                            - 21 -
     Estimated amounts that will be amortized from accumulated other comprehensive income into net
     periodic benefit cost (credit) in 2011 are shown below:

       Net actuarial (gain) loss                                                                                 $ 110,901
       Prior service (credit) cost                                                                                 (25,490)

       Total                                                                                                     $ 85,411

8.   ACCUMULATED POSTEMPLOYMENT BENEFITS

     The Board provides certain postemployment benefits to eligible former or inactive employees and their
     dependents during the period subsequent to employment but prior to retirement. Postemployment costs
     were actuarially determined using a December 31 measurement date and discount rates of 3.50% and
     4.00% as of December 31, 2010 and 2009, respectively. The accrued postemployment benefit costs
     recognized by the Board as of December 31, 2010 and 2009, were $701,000 and $1,754,000,
     respectively.

9.   ACCUMULATED OTHER COMPREHENSIVE INCOME (LOSS)

     A reconciliation of beginning and ending balances of accumulated other comprehensive income (loss)
     for the years ended December 31, 2010 and 2009, is as follows:

                                                                                            Amount Related to         Total Accumulated
                                                                       Amount Related to     Postretirement                 Other
                                                                        Defined Benefit    Benefits Other Than         Comprehensive
                                                                       Retirement Plans         Pensions                Income (Loss)

       Balance — January 1, 2009                                   $          8,378,074    $         896,088          $   (9,274,162)

       Change in funded status of benefit plans:
        Prior service (credit) cost arising during the year                     315,842                    -                  (315,842)
        Amortization of prior service credit (costs)                           (566,652)              25,490                   541,162
        Amortization of net actuarial gain (loss)                              (297,673)             (55,878)                  353,551
        Net actuarial (gain) loss arising during the year                       110,805              361,009                  (471,814)

               Change in funded status of benefit
                plans — other comprehensive income (loss)                      (437,678)             330,621                  107,057

       Balance — December 31, 2009                                            7,940,396            1,226,709              (9,167,105)

       Change in funded status of benefit plans:
        Prior service (credit) cost arising during the year
        Amortization of prior service credit (costs)                           (543,685)              25,490                 518,195
        Amortization of net actuarial gain (loss)                              (500,512)             (76,224)                576,736
        Net actuarial (gain) loss arising during the year                     6,090,681              464,667              (6,555,348)

               Change in funded status of benefit
                plans — other comprehensive income (loss)                     5,046,484              413,933              (5,460,417)

       Balance — December 31, 2010                                 $         12,986,880    $       1,640,642          $ (14,627,522)




     Additional detail regarding the classification of accumulated other comprehensive income (loss) is
     included in Notes 6 and 7.


                                                              - 22 -
10. FEDERAL RESERVE BANKS

   The Board performs certain functions for the Reserve Banks in conjunction with its responsibilities for
   the System, and the Reserve Banks provide certain administrative functions for the Board. Activity
   related to the Board and Reserve Banks as of December 31, 2010 and 2009, is summarized in the
   following table:

                                                                            2010                 2009

   Reserve Bank expenses charged to the Board:
    Data processing and communication                               $         919,889       $     776,835
    Contingency site                                                        1,254,331           1,171,808

   Total Reserve Bank expenses charged to the Board                 $       2,174,220       $   1,948,643

   Board expenses charged to the Reserve Banks:
    Assessments for currency costs:
     Printing                                                       $     598,238,821       $ 479,255,288
     Shipping                                                              16,900,584          15,367,546
     Retirement                                                             3,513,538           3,608,937
     Research and development                                               4,205,705           3,913,112
    Assessments for operating expenses of the Board                       422,200,000         386,399,900
    Data processing                                                           483,512             635,235

   Total Board expenses charged to the Reserve Banks                $ 1,045,542,160         $ 889,180,018

   Accounts receivable due from the Reserve Banks                   $         856,685       $   1,071,932

   The Board contracted for audit services on behalf of entities that are included in the combined financial
   statements of the Federal Reserve Banks. The entities reimburse the Board for the cost of the audit
   services. The Board accrued liabilities of $322,000 and $138,000 in audit services and recorded
   receivables of $322,000 and $138,000 from the entities as of December 31, 2010 and 2009, respectively.

11. FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

   The Board is one of the five member agencies of the Federal Financial Institutions Examination Council
   (the Council), and currently performs certain management functions for the Council. The five agencies
   that are represented on the Council are the Board, Federal Deposit Insurance Corporation, National
   Credit Union Administration, Office of the Comptroller of the Currency, and Office of Thrift
   Supervision.




                                                  - 23 -
   The Board’s financial statements do not include financial data for the Council. Activity related to the
   Board and Council, as of December 31, 2010 and 2009, is summarized in the following table:

                                                                                 2010              2009

     Council expenses charged to the Board:
      Assessments for operating expenses                                     $ 126,469       $      67,998
      Assessments for examiner education                                        672,153            734,359
      Central Data Repository                                                 1,202,704          1,522,597
      Uniform Bank Performance Report                                           154,877            210,293

     Total Council expenses charged to the Board                             $ 2,156,203     $ 2,535,247

     Board expenses charged to the Council:
      Data processing related services                                       $ 4,897,107     $ 4,884,868
      Administrative services                                                    245,000         245,000

     Total Board expenses charged to the Council                             $ 5,142,107     $ 5,129,868

     Accounts receivable due from the Council                                $ 579,792       $ 618,861
     Accounts payable due to the Council                                       290,047         209,922



   In 2007, the Council began a rewrite of the Home Mortgage Disclosure Act processing system, for
   which the Board provides data processing services. The total cost of the rewrite for the Council is $2.7
   million of which the Board expense to support this effort was $464,000 through December 31, 2010.

12. THE OFFICE OF EMPLOYEE BENEFITS OF THE FEDERAL RESERVE SYSTEM

   The Office of Employee Benefits of the Federal Reserve System (OEB) administers certain System
   benefit programs on behalf of the Board and the Reserve Banks, and costs associated with the OEB’s
   activities are assessed to the Board and Reserve Banks. The Board was assessed $2,371,000 and
   $2,166,000 as of December 31, 2010 and 2009, respectively.

13. THE BUREAU OF CONSUMER FINANCIAL PROTECTION

   Sec. 1017 of the Dodd-Frank Act requires the Board to fund the Bureau the amount needed to carry out
   the authorities granted to the Bureau under Federal consumer financial law. Beginning July 2011, the
   Act limits the amount to be transferred each fiscal year to a fixed percentage of the System’s total
   operating expenses. During 2010, the Board received and processed funding requests for the Bureau
   totaling $32,770,000.

14. THE OFFICE OF FINANCIAL RESEARCH

   Sec. 155(c) of the Dodd-Frank Act requires the Board to provide an amount sufficient to cover the
   expenses of the Office for the 2-year period following the date of the enactment (July 21, 2010). The
   expenses of the FSOC are included in the expenses of the Office. During 2010, the Board received and
   processed funding requests for the Office totaling $9,515,944.




                                                   - 24 -
15. BUREAU OF ENGRAVING AND PRINTING

   The Bureau of Engraving and Printing is the sole supplier for currency printing and also provides
   retirement services. The currency costs incurred as of December 31, 2010 and 2009, are reflected in the
   following table:

                                                                              2010                2009

     Currency expenses charged to the Board:
      Printing                                                          $ 598,238,821       $ 479,255,288
      Retirement                                                            3,513,538           3,608,937

     Total currency expenses charged to the Board                       $ 601,752,359       $ 482,864,225

16. COMMITMENTS AND CONTINGENCIES

   Commitments — The Board has entered into an agreement with the Federal Deposit Insurance
   Corporation and the Office of the Comptroller of the Currency, through the Council, to fund a portion of
   the enhancements and maintenance fees for a central data repository project through 2010 with an option
   to extend maintenance through 2013. The estimated Board expense to support this effort is $7.9 million
   for the base period and $2.6 million for the option period.

   Litigation and Contingent Liabilities — The Board is subject to contingent liabilities which arise from
   litigation cases and various business contracts. These contingent liabilities arise in the normal course of
   operations and their ultimate disposition is unknown. Based on information currently available to
   management, it is management’s opinion that the expected outcome of these matters, in the aggregate,
   will not have a materially adverse effect on the financial statements.

   Civil cases against the Board arising out of The Freedom of Information Act permits recovery of
   attorneys fees in civil cases where the plaintiff “substantially prevails”. There are two pending cases in
   which it is possible that the Board could be required to pay fees in excess of $205,000 per case.

17. SUBSEQUENT EVENTS

   There were no subsequent events that require adjustments to or disclosures in the financial statements as
   of December 31, 2010. Subsequent events were evaluated through February 28, 2011, which is the date
   the financial statements were available to be issued.

                                                ******




                                                   - 25 -
                                                                                         Deloitte & Touche LLP

                                                                                         Suite 800
                                                                                         1750 Tysons Boulevard
                                                                                         McLean, VA 22102-4219
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL                                         USA

OVER FINANCIAL REPORTING AND ON COMPLIANCE AND                                           Tel: +1 703 251 1000
OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL                                             Fax: +1 703 251 3400
                                                                                         www.deloitte.com
STATEMENTS PERFORMED IN ACCORDANCE WITH
GOVERNMENT AUDITING STANDARDS

To the Board of Governors of the Federal Reserve System:

We have audited the financial statements of the Board of Governors of the Federal Reserve
System (the “Board”) as of and for the year ended December 31, 2010, and have issued our
report thereon dated February 28, 2011. We conducted our audit in accordance generally
accepted auditing standards as established by the Auditing Standards Board (United States),
auditing standards of the Public Company Accounting Oversight Board (United States), and the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States.

Internal Control over Financial Reporting

In accordance with standards of the Public Company Accounting Oversight Board (United
States) and Government Auditing Standards, we have also issued our report dated February 28,
2011, on our tests of the Board’s internal control over financial reporting. The purpose of that
report is to describe the scope and the results of that testing. That report is an integral part of an
audit performed in accordance with standards of the Public Company Accounting Oversight
Board (United States) and Government Auditing Standards and should be considered in assessing
the results of our audit.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Board’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards.
Distribution

This report is intended solely for the information and use of the Board, management, and others
within the organization, Office of Inspector General, the United States Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




February 28, 2011
